No. ______
IN THE

Supreme Court of the United States
CHEROKEE NATION; ONEIDA NATION; QUINAULT INDIAN NATION;
MORONGO BAND OF MISSION INDIANS,
Petitioners,
v.
CHAD EVERETT BRACKEEN, et al.,
Respondents.
CERTIFICATE OF SERVICE
I, Ian Heath Gershengorn, hereby certify that I am a member of the Bar of this
Court, and that I have this 3rd day of September 2021, caused three copies of the
Petition for a Writ of Certiorari and Appendix to Petition for a Writ of Certiorari to be
served via overnight mail and an electronic version of the document to be transmitted
via the Court’s electronic filing system to:
Doreen N. McPaul, Attorney General
Paul Spruhan, Assistant Attorney
General
Navajo Nation Department of Justice
2521 Old BIA Club Building
Window Rock, Arizona 86515
(928) 871-6210
paspruhan@nndoj.org

Matthew D. McGill
David William Casazza
Lochlan Francis Shelfer
Gibson, Dunn & Crutcher, L.L.P.
1050 Connecticut Avenue, N.W.
Washington, DC 20036-5306
(202) 955-8500
mmcgill@gibsondunn.com

Counsel for the Intervenor Navajo
Nation

Counsel for Brackeen, et al.

Brian H. Fletcher
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Beth Klusmann
Assistant Solicitor General
Office of the Texas Attorney General
300 W. 15th Street
Austin, Texas 78701
(512) 936-1914
beth.klusmann@oag.texas.gov

Counsel for United States, et al.

Counsel for Texas et al.
/s/ Ian Heath Gershengorn
Ian Heath Gershengorn

